<html>
<title> - EXAMINING SUCCESS IN VOCATIONAL EDUCATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




               EXAMINING SUCCESS IN VOCATIONAL EDUCATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             April 27, 2004

                               __________

                           Serial No. 108-53

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-384                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Susan A. Davis, California
James C. Greenwood, Pennsylvania     Danny K. Davis, Illinois
Fred Upton, Michigan                 Ed Case, Hawaii
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Jim DeMint, South Carolina           Ron Kind, Wisconsin
Judy Biggert, Illinois               Dennis J. Kucinich, Ohio
Todd Russell Platts, Pennsylvania    Chris Van Hollen, Maryland
Ric Keller, Florida                  Denise L. Majette, Georgia
Joe Wilson, South Carolina           George Miller, California, ex 
Marilyn N. Musgrave, Colorado            officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 27, 2004...................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     1
        Prepared statement of....................................     3
    Woolsey, Hon. Lynn C., Ranking Member, Subcommittee on 
      Education Reform, Committee on Education and the Workforce.     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Barton, Dr. Thomas E., Jr., President, Greenville Technical 
      and Community College, Greenville, South Carolina..........    17
        Prepared statement of....................................    20
    Walls-Culotta, Sandra, Principal, Sussex Technical High 
      School, Georgetown, Delaware...............................     7
        Prepared statement of....................................    10
    White, Dr. Roberta, President/CEO, Great Oaks Institute of 
      Technology and Career Development, Cincinnati, Ohio........    12
        Prepared statement of....................................    14
    Wong, Dr. Carl, Superintendent of Schools, Sonoma County 
      Office of Education, Santa Rosa, California................    15
        Prepared statement of....................................    17
    Zwickert, Marie, Area Academy Manager for NE and OH Valley, 
      CISCO Systems, Columbia, Maryland..........................    23
        Prepared statement of....................................    26


 
               EXAMINING SUCCESS IN VOCATIONAL EDUCATION

                              ----------                              


                        Tuesday, April 27, 2004

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 1:07 p.m., in 
room 2175, Rayburn House Office Building, Hon. Mike Castle 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Castle, Osborne, DeMint, Woolsey, 
Davis of California, and Grijalva.
    Staff Present: Kevin Frank, Professional Staff Member; 
Alexa Marrero, Press Secretary; Stephanie Milburn, Professional 
Staff Member; Krisann Pearce, Deputy Director of Education and 
Human Resources Policy; Alanna Porter, Legislative Assistant; 
Whitney Rhoades, Professional Staff Member; Deborah L. 
Samantar, Committee Clerk/Intern Coordinator; Denise Forte, 
Minority Legislative Associate/Education; Joe Novotny, Minority 
Legislative Assistant/Education; and Lynda Theil, Minority 
Legislative Associate/Education.
    Mr. Castle. Good afternoon. A quorum being present, the 
Subcommittee on Education Reform of the Committee on Education 
and the Workforce will come to order.
    We are meeting today to hear testimony examining success in 
vocational education, and this is basically the startup on 
hearings on this leading to a markup later, probably next 
month.
    Under Committee rule 12(b), opening statements are limited 
to the Chairman and Ranking Minority Member of the 
Subcommittee. If other Members have statements, they may be 
included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Thank you for joining us today to hear testimony on 
successful vocational and technical education programs 
supported by the Carl D. Perkins Vocational and Technical 
Education Act. Today's hearing provides the opportunity to 
examine the implementation of the reforms from the 1998 
reauthorization, particularly the academic and technical 
integration highlighted in the law. This is our first hearing 
on vocational and technical education as we look toward 
reauthorization of the Perkins Act.
    The Perkins law provides Federal assistance for secondary 
and postsecondary vocational and technical education programs 
at the high school level and at less than 4-year postsecondary 
institutions. The program provides one of the largest amounts 
of Federal investment in our Nation's high schools and is a key 
component of our efforts to provide opportunities for youth and 
adults to prepare for the future by building their academic and 
technical skills.
    During today's hearing, we are focusing on the successes 
the law has fostered at both the secondary and postsecondary 
level. Progress has been made since the 1998 reauthorization of 
the Perkins Act in modernizing vocational and technical 
education programs by creating an initial performance 
accountability system and strengthening the focus on academic 
performance among participating students. Whether a student 
progresses directly to the workforce or goes on to an 
institution of higher education, it is imperative they have a 
strong academic base.
    According to the Southern Regional Board, students 
completing a rigorous academic core of courses, coupled with 
vocational and technical education, have test scores that are 
equal to or higher than those of students identified as taking 
only college preparatory coursework. Vocational and technical 
education students also are more likely to pursue postsecondary 
education, have higher grade point averages in college, are 
less likely to drop out in the first year, and have better 
employment and earnings outcomes than other students.
    However, we know that the education supported through the 
Perkins Act needs to reflect the changing reality of our 
dynamic economy. Technology and economic competition are 
combining in unprecedented ways to change education and work 
and redefine the American workplace. Unlike jobs a half century 
ago, many of today's jobs demand strong academic and technical 
skills, technological proficiency, and education and training 
beyond high school. Reinforcing this point, Federal Reserve 
Chairman Alan Greenspan reiterated during a recent full 
Committee hearing the importance of the ``provision of rigorous 
education and ongoing training to all members of our society.''
    Today, we begin the process of hearing from individuals who 
have helped transform vocational and technical education. We 
will be hearing from three school districts that will provide 
us with lessons of how to achieve integration at the local 
level. In addition, we will hear from a technical and community 
college to learn how the school has partnered with the area 
secondary schools. Finally, we will hear from a business 
representative to learn about industry's efforts to partner 
with secondary and community colleges.
    Our challenge during reauthorization of this act will be to 
ensure that all students pursuing vocational and technical 
education are academically prepared for either postsecondary 
education or employment of their choice. We hope to learn of 
promising practices and how your institutions have used the 
reforms of the last Perkins reauthorization to achieve your 
successes. In addition, I am sure you will provide us with 
useful insight on additional Federal changes. Thank you for 
joining us.
    I will now yield to Congresswoman Woolsey for any opening 
statement she may have.
    [The prepared statement of Mr. Castle follows:]

    Statement of Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

[GRAPHIC] [TIFF OMITTED] T3384.011

                                ------                                



STATEMENT OF HON. LYNN C. WOOLSEY, RANKING MEMBER, SUBCOMMITTEE 
 ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you, Mr. Chairman. I look forward to 
working with you on this and the Members of the Subcommittee to 
reauthorize the Carl Perkins Vocational and Technical Education 
Act.
    The Perkins Act is one of the best investments we can make 
in American youth and in the American economy. As we go along, 
I am going to be fighting very hard that we keep WEIE, Women's 
Equity in Education, included in our reauthorization, not only 
because it is good for women, but in memory of Patsy Mink, who 
was our hero on that.
    When the first Federal Vocational-Technical Act was signed 
into law in 1917, its stated purpose was to give young adults 
an opportunity for better careers and to ensure America's 
continuing ability to compete economically in the world 
marketplace. Close to 90 years later, with all of the changes 
that have taken place both in the American workplace and in the 
global market, these same goals must continue. They have to be 
the primary goals of vocational and technical education for our 
country.
    While I certainly support efforts to increase academic 
achievement for all students, we must not sell short the goals 
and accomplishments of good vocational and technical education 
programs, programs which just do not prepare students for jobs, 
but also prepare them for careers. Good vocational and 
technical programs give students the education they need to 
enter high-skilled, high-wage careers, the kinds of careers 
that are essential to a strong American economy.
    When a vocational education program is working well, 
students do not have to choose between learning academics and 
learning skills, because they actually learn both. A study 
evaluating California's career academy programs found that the 
students who participated actually had a greater increase in 
their academic knowledge than their counterparts in the general 
secondary education population.
    In our efforts to improve public education, we cannot lose 
sight of the diverse interests and needs of American students. 
It is not a one-size-fits-all world. Not all students learn in 
the same way, and successful vocational education programs 
significantly reduce dropout rates, increase high school 
graduation rates, and increase the number of students who go on 
to postsecondary education, as well as going on to careers 
which actually pay a livable wage.
    I look forward to hearing how our witnesses use Perkins 
funds to support technical and vocational education programs 
which meet their students' career and academic goals. I hope we 
will also hear some very good new suggestions on what we can do 
in this reauthorization to improve the Perkins Act, 
particularly ways that we can increase access to training for 
nontraditional careers and any other changes that we can make 
that will give more young Americans an opportunity to go and 
get the American dream.
    I welcome all of you. I am anxious to hear your testimony. 
Thank you very much for coming.
    [The prepared statement of Ms. Woolsey follows:]

  Statement of Hon. Lynn C. Woolsey, Ranking Member, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

[GRAPHIC] [TIFF OMITTED] T3384.012

                                ------                                


    Mr. Castle. Thank you, Ms. Woolsey.
    We also thank Mr. Osborne, the vice chair of the Committee, 
and Mr. Grijalva and Mr. DeMint for being here as well. We look 
forward to a distinguished panel of witnesses.
    I am going to start the introductions with the pride of 
Delaware, Ms. Sandy Walls-Culotta, who is the Principal of 
Sussex Technical High School located in Georgetown, Delaware.
    Prior to her taking on the principalship 4 years ago, she 
was one of the three assistant principals at the school. Prior 
to joining Sussex Tech's administration, she was program 
coordinator, Principal of the School for Adolescent Special 
Education Students housed within the Sussex Technical School 
district.
    In her spare time, she teaches career technical education 
courses for Wilmington College and works at schools throughout 
the country to help improve programs for their students.
    Several of the witnesses here today are going to be 
introduced by Members. I will introduce Dr. White and then Ms. 
Woolsey will introduce Dr. Wong.
    Dr. Roberta White is President and CEO of the Great Oaks 
Institute of Technology and Career Development in southwest 
Ohio. Dr. White taught for 17 years in suburban school 
districts outside Dayton and Cincinnati, Ohio. She sits on 
several national boards dealing with two of her major concerns: 
business education partnerships and vocational assessment. As 
Great Oaks' CEO since January of 2003, Dr. White has increased 
parent involvement, strengthened core academics and promoted 
collaborative partnerships with business and postsecondary 
institutions.
    At this time, I yield to Ms. Woolsey to introduce the next 
witness on our panel.
    Ms. Woolsey. Thank you, Mr. Chairman.
    We have a pride in our community also, and his name is Dr. 
Carl Wong. Dr. Wong is the Superintendent of Schools for Sonoma 
County, California, one of the two counties that I represent 
north of the Golden Gate Bridge.
    Sonoma County's public school system is comprised of 40 
school districts with a combined student population of over 
73,000. In this locally elected position, Dr. Wong provides 
county-wide leadership to support the success of the student 
schools and districts of Sonoma County.
    I have worked with Dr. Wong for many years. In fact, Carl 
Wong was the Superintendent of the Petaluma High School 
District, where I lived for many years, before he was elected 
to the county position. He was well respected there, and he is 
well respected in his new position by educators and students 
alike.
    He is terrific about letting my staff and me know when 
there is something we need to be doing to make vocational 
education better at the Federal level, and I so appreciate 
that.
    Dr. Wong, thank you for making the effort to be here today. 
I know it was difficult, and I am pleased my colleagues will 
have the opportunity to benefit from your knowledge and your 
experience.
    Mr. Castle. Thank you, Mrs. Woolsey.
    Welcome, Dr. Wong.
    Mr. DeMint will introduce our next witness, Dr. Barton.
    Mr. DeMint. Thank you, Mr. Chairman. We do have also here 
the pride of South Carolina, Dr. Tom Barton, a great friend of 
mine, legendary in our State for many reasons. Dr. Barton went 
to Clemson University where he played football under the 
legendary Frank Howard. He has been inducted into the South 
Carolina Athletic Hall of Fame. He completed his doctorate at 
Duke University and served in public education for years and 
was part of the early stages of development of Greenville 
Technical College. He is now the longest-serving president of a 
2-year college in this country.
    Tom Barton is known throughout the State. He has been given 
almost every award in the State from Person of the Year to Top 
Educator, and he has been a real innovator, most importantly in 
education. He has demonstrated, I think, as much as any other 
person, through the Greenville Tech institution how applied 
learning, career, contextual-type learning can teach academics 
in a better way.
    He has been a major part of helping to develop the economy 
of the upstate of South Carolina by training workforces for new 
companies like BMW and Michelin that have moved in, and he has 
done something that I think will set the pace in the rest of 
the State by actually starting a charter high school as a part 
of Greenville Tech. And the first graduating class of that high 
school had the highest exit exams of reading and writing in the 
school district, second in the State. One hundred percent of 
those students went on to college and many went on to their 
second year of college.
    Through his innovation, we are seeing better ways to 
educate in higher education, but to take applied learning into 
high school and maybe even middle school someday to engage 
students in a way that we have not so far.
    Dr. Barton, thank you for traveling up here. I am certainly 
looking forward to your testimony.
    Mr. Castle. Thank you, Mr. DeMint.
    Welcome, Dr. Barton.
    Our final witness is Marie Zwickert who is the Area Academy 
Manager for the CISCO Networking Academy program for CISCO 
Systems, Inc., Ms. Zwickert manages the implementation of the 
CISCO Networking Academy program in the Northeast and Ohio 
Valley. She works with other secondary and postsecondary and 
other nonprofit educational entities to ensure their success 
relative to implementing the CISCO Networking Academy program.
    Prior to her employment with CISCO Systems, Inc., Ms. 
Zwickert was the Assistant Director of Professional Development 
for Tri-Rivers Education Computer Association located in Ohio.
    We welcome you also. You will be the cleanup hitter here.
    Mr. Castle. Before the witnesses begin, let me tell you 
what will happen. You will each have 5 minutes. You will have a 
green light for 4 minutes, a yellow light for 1 minute, and 
then a red a minute thereafter. When the red light goes on, you 
might think about wrapping it up, and then each of us will have 
5 minutes of questions and answers. So obviously we are looking 
for relatively brief answers to get in as many questions as 
possible. If we decide another round of questions is in order, 
we will go to it, but we will make that decision later.
    I think you can sort of sense this is a relatively friendly 
hearing, and I say relatively because we never know what is 
going to happen. But you are all individuals who have succeeded 
in taking vocational education and producing students who are 
achieving. We want to know what the key to that success is, 
what have we done right and what do we need to change. We look 
forward to your testimony and will ask you some questions. 
Hopefully, you will get us off to a good start as we begin the 
reauthorization of an important piece of legislation.
    Ms. Walls-Culotta, you may begin.

STATEMENT OF SANDRA WALLS-CULOTTA, PRINCIPAL, SUSSEX TECHNICAL 
               HIGH SCHOOL, GEORGETOWN, DELAWARE

    Ms. Walls-Culotta. Thank you for your invitation to testify 
today.
    I wish to provide to the Subcommittee with actual 
experiences from my school, Sussex Tech High School, to show 
how effective career technical education can make a significant 
difference for all students in their academic achievement when 
integrated with academics. I would like to emphasize that this 
type of educational programming needs to continue so that all 
students are successful in meeting the requirements of No Child 
Left Behind.
    Sussex Technical High School began as a shared-time 
vocational center in rural southern Delaware. The center's 
mission was to serve part-time students from seven independent 
feeder school districts. By the mid-1980's there were serious 
flaws. After 3 years of intensive planning through the 
utilization of frameworks provided by the National Center For 
Research in Vocational Education and the Southern Regional 
Educational Board's ``High Schools That Work,'' the problem-
laden shared-time concept was discarded. Sussex Tech became a 
High School That Works site, and followed that reform model. In 
September 1991, the center was changed to a comprehensive 
technical high school for students in grades 9 through 12.
    The new school offers innovative concepts such as block 
scheduling, common planning for teachers, structured programs 
of study, career majors of strong and relevant college prep 
academic programs, and an integrated curriculum. Sussex Tech 
has been transformed from an area shared-time vocational school 
with declining student enrollment, low academic achievement, to 
a restructured clustered high school that offers students 
challenging integrated curriculum.
    Today, Sussex Tech has more than 1,200 students, and at 
present, we have more than 300 students on the waiting list for 
next year's freshman class.
    Sussex Tech was organized around four clusters, which 
provides a natural vehicle for students to develop specific 
skills in small learning communities. Similar career programs 
are grouped into technical clusters. The four clusters are 
automotive technologies, health and human services, 
communication and information technologies, and industrial 
engineering. Each student has a 3-year program of study that 
outlines their academic and technical coursework that is 
required for that particular cluster.
    The clusters are managed by two managers, one being a 
technical teacher and one being an academic instructor. The 
cluster provides facilitation for ongoing improvement, 
implementation of the integrated curriculum, and instruction in 
overall school improvement. All clusters have a common planning 
time each day for the teachers to gather to discuss students, 
provide peer support, and develop better integrated activities. 
Our master schedule is developed so that all students with a 
specific cluster are scheduled into the same classes.
    The heart of the program at Sussex Tech is the integration 
of academic and technical instruction. The term ``techademic'' 
was coined by an English teacher at our school to demonstrate 
the goal of integrating a career technical curriculum with 
academics.
    All of our students are required to complete a minimum of 
28 credits for graduation. Juniors are required to complete a 
research paper based on a topic from their technical area which 
is graded both by the English and the technical instructors. 
Seniors must complete a senior project which is composed of a 
research paper, a product that is built or produced and an oral 
presentation. In the oral presentation, to make sure students 
have communication skills, they must present in front of a 
panel of academic and technical teachers, administrative staff, 
and representatives from the business community.
    Reform efforts at Sussex Tech have been ongoing since 1988. 
Since reform efforts began, the administration has placed a 
strong emphasis on professional development and the hiring of 
teachers who want to find ways to integrate the curriculum and 
work in teams across disciplines.
    School reform and a full-time, comprehensive technical high 
school model has shown to be successful at Sussex Tech. Since 
1993, Sussex Tech students have gained significantly in their 
academic achievement. On the Delaware Student Testing program, 
we are normally in the top three in the State. Our math scores 
for students meeting or exceeding standards have risen 
dramatically, and in all areas. Our attendance rate is 96 
percent, our dropout is 1.7. Our graduation rate is 96 percent.
    Sussex Tech High School is a model that demonstrates that 
sound integration of academics and career technical coursework 
does assist students in improving academic achievement. 
Academic instructors cannot do it alone. Career technical 
instructors are the missing link for students who have become 
frustrated with academics during their school careers. This 
link provides students reasons for learning algebraic 
equations, Ohm's law, the United States Constitution, and 
learning to write correctly so one's thoughts are understood. 
Career technical education does have an extremely important 
part in assisting all students to meet and exceed academic 
standards.
    Mr. Castle. Thank you.
    [The prepared statement of Ms. Walls-Culotta follows:]

  Statement of Sandra Walls-Culotta, Principal, Sussex Technical High 
                      School, Georgetown, Delaware

[GRAPHIC] [TIFF OMITTED] T3384.004

[GRAPHIC] [TIFF OMITTED] T3384.005

                                ------                                


    Mr. Castle. Dr. White.

   STATEMENT OF DR. ROBERTA WHITE, PRESIDENT/CEO, GREAT OAKS 
  INSTITUTE OF TECHNOLOGY AND CAREER DEVELOPMENT, CINCINNATI, 
                              OHIO

    Dr. White. Chairman Castle and Members of the Committee, 
thank you for giving me the opportunity to testify about the 
benefits of the Perkins legislation.
    In today's competitive global economy, employers need and 
are demanding that employees have higher levels of academic and 
technical skills. The Perkins legislation is invaluable to 
Great Oaks and other career and technical school districts in 
preparing students to succeed.
    Great Oaks is a public school that provides career and 
technical education programs for 36 school districts in 12 
counties in southwest Ohio. Each year we educate over 3,000 
junior and senior high school students on our four career 
campuses in full-day programs, and another 3,000 students in 
technology programs we offer in their home schools. Over 50,000 
adults enroll in programs and services we provide at Great Oaks 
each year. We work closely with more than 1,000 employers in 
postsecondary institutions to keep our programs on the cutting 
edge.
    The Perkins legislation recognized that businesses and 
postsecondary institutions were demanding more rigorous 
academic and technical skills from their employees and 
students. The Perkins Act directly addressed this need by 
requiring that core academics be integrated into the technical 
curriculum. In response, Great Oaks has made and continues to 
make significant improvements in the curriculum and in the way 
we deliver it. We now prepare students for both careers and for 
continuing education.
    The first significant improvement is the increased emphasis 
on more rigorous, integrated academics. General math and 
science classes have evolved in advanced algebra, calculus, 
microbiology and anatomy. Competencies are aligned with the 
standards of the Ohio Department of Education, industry 
certifications and postsecondary requirements. Teams of 
teachers, both academic and technical, collaborate to ensure 
these competencies are integrated into their curricula.
    The value of career and technical education is that 
students have an opportunity to learn a concept in a variety of 
ways. In math and physics, a construction student learns about 
loads and vectors and then applies them in her lab.
    The second major improvement in our delivery system is an 
increased emphasis on continuing education. Since the Perkins 
Act was last reauthorized, Great Oaks has seen the percentage 
of graduates who continue to go immediately into postsecondary 
education nearly double. In 1998, about 20 percent of our 
graduates went directly into postsecondary education. In 2003, 
over 35 percent did. Great Oaks has 132 articulation agreements 
with postsecondary institutions and apprenticeship programs 
throughout the country. Through these agreements, students earn 
advanced credit in their areas of specialization.
    Our goal is to enable students to move seamlessly from 
Great Oaks to a postsecondary institution and to arrive with 
about 35 hours of college credit already in place. Students 
from our police academy can enter Xavier University with 24 
college credits and those in health technology can receive 26 
college credits at the University of Cincinnati. Because 
Perkins III created core performance measures within a year of 
graduation, 98 percent of our graduates are employed, 
continuing on to postsecondary education or both.
    Our third significant improvement is an individualized 
academic plan for each student. We are customizing each 
student's career path, constantly measuring student progress 
and providing intervention services as needed. Students, their 
parents, teachers and counselors agree on a plan that outlines 
what students need to graduate and to continue on a specific 
career path.
    For over 20 years, the Perkins Act has regularly given 
career and technical education goals in workforce development 
that enable us to meet the needs of employers and thereby 
better prepare our students for careers. Perkins funds help us 
in targeted and important ways, including professional 
development for instructors, placement for high school and 
adult students, support for students with disabilities, and 
career education services.
    Thank you very much for this opportunity to tell you about 
our success with Perkins, and about the opportunities for 
continuing that success.
    Mr. Castle. Thank you, Dr. White. We appreciate your 
testimony as well.
    [The prepared statement of Dr. White follows:]

  Statement of Roberta White, President/CEO, Great Oaks Institute of 
          Technology and Career Development, Cincinnati, Ohio

[GRAPHIC] [TIFF OMITTED] T3384.006

[GRAPHIC] [TIFF OMITTED] T3384.007

                                ------                                


    Mr. Castle. Dr. Wong.

  STATEMENT OF DR. CARL WONG, SONOMA COUNTY SUPERINTENDENT OF 
    SCHOOLS, SONOMA COUNTY OFFICE OF EDUCATION, SANTA ROSA, 
                           CALIFORNIA

    Dr. Wong. Good afternoon, honorable Members of the 
Subcommittee on Education Reform. My name is Carl Wong, County 
Superintendent of Schools in Sonoma County. On behalf of our 
county, our 40 school districts, our 73,000 students, I express 
my appreciation for this opportunity to address the 
Subcommittee on the topic of examining success in vocational 
education.
    I began my education career 33 years ago as a high school 
industrial arts teacher, but I have more of a personal 
connection. When I was in high school, I took all of the 
industrial arts courses possible. Upon graduation from high 
school, I served a 4-year apprenticeship at Mare Island Naval 
Shipyard in Vallejo, California, and actually am a journeyman 
machinist by trade. With that background, my testimony today is 
both from a personal and professional perspective.
    I would like to focus on how schools in Sonoma County are 
integrating vocational and technical education with our 
rigorous academic standards, as adopted by the State of 
California.
    There are 15 comprehensive high schools in Sonoma County 
serving over 23,000 students in grades 9-12. All of the high 
schools in the county do receive Perkins funding, and the 
Perkins fund is complemented by State general funds, district 
general funds; and we also integrate the Perkins funds with the 
Regional Occupational Program, more commonly known as ROP, 
which is a California State-funded program specifically for 
vocational preparation, and also the tech-prep program which is 
aligned with our local community college.
    The Santa Rosa Junior College is one of the largest in 
California. We have a junior college enrollment exceeding 
30,000 students in our county. Our county has a long history of 
both coordination and collaboration between the various 
institutions, including the California State University located 
in Sonoma County.
    We encourage and have active representation, including 
myself, on the Sonoma County Workforce Investment Board. We 
have a local youth council. We are actively represented on the 
Sonoma County Business Education Round Table and, of course, 
the School-to-Careers Advisory Board. We are also members of 
the Sonoma County Economic Development Board, and I sit on the 
California State Youth Council.
    Employer advisory councils are also convened on an annual 
basis to validate our high school career pathways which 
incorporate vocational and technical preparation, along with 
college preparation coursework and work-based learning 
experiences. These include job shadow opportunities, both paid 
and nonpaid internships.
    Sonoma County's proximity to Silicon Valley and the Bay 
Area and our local telecommunications industry has resulted in 
significant transformation of the vocational funds provided by 
Perkins in more of a nontraditional manner. Even prior to the 
No Child Left Behind Act, our local governing boards, school 
districts, and superintendents were already embracing the 
notion that English proficiency and strong academics needed to 
be a priority. Furthermore, we are beginning year 7 of 
Statewide academic standards which include advanced college 
preparatory mathematics and science courses which are available 
on all of our comprehensive campuses.
    We no longer differentiate between a student's path through 
high school as characterized by either college bound or work 
bound. Our prevailing philosophy and practice is the 
integration of workforce and academic skills so that education 
is essentially career, technical, and vocational education.
    Our Perkins-funded course work, along with our regional 
occupational programs and community college tech-prep classes, 
are calibrated to reflect current business and industry 
standards. We work collaboratively with our local unions and 
nonunions to develop career pathways that reflect the global 
workforce of the 21st century.
    Academic rigor and workplace relevancy are interconnected. 
The Perkins Act funding serves to leverage and link a student's 
comprehensive high school experience to support the notion that 
academics applied is indeed academics learned.
    I commend the Subcommittee holding these hearings to 
receive input directly from the field. As a former teacher, 
guidance counselor, high school principal and district 
superintendent, I can assure you that Perkins funding is 
invaluable in supporting the integration of vocational and 
technical skills and academics. As a county superintendent, I 
clearly understand the spirit and intent of the legislation and 
take the necessary professional responsibility and prudent 
application of the funds.
    I thank you for this opportunity to provide testimony on 
this important matter.
    Mr. Castle. Thank you, Dr. Wong. We appreciate your 
testimony, too.
    [The prepared statement of Dr. Wong follows:]

Statement of Carl Wong, Superintendent of Schools, Sonoma County Office 
                  of Education, Santa Rosa, California

[GRAPHIC] [TIFF OMITTED] T3384.008

                                ------                                


    Mr. Castle. Dr. Barton.

 STATEMENT OF DR. THOMAS E. BARTON, JR., PRESIDENT, GREENVILLE 
  TECHNICAL AND COMMUNITY COLLEGE, GREENVILLE, SOUTH CAROLINA

    Dr. Barton. First of all, I want to tell you how I feel 
about being here. I think it is certainly an opportunity for us 
to say some things to such a group of people that represent so 
many other people that it is a real honor to be here.
    Ms. Woolsey, I happened to hear in your presentation about 
WEIE, and we totally support what you said. We just used WEIE 
in a special project of what we call ``Quick Jobs'' in the 
upstate of South Carolina, and out of 5,100 people that did not 
have jobs--they were at the 8th grade level; all the textile 
industry is gone, and these people were the remnants left over 
there--4,200 of them got jobs. That fits the WEIE concept that 
you said there. I wanted to say that.
    Mr. Chairman, I met you many years ago with Jack Owens, if 
you remember the name, and I know you do. We had the honor to 
help you and Jack Owens and the fine people in Georgetown to 
build a university center on one of your community college 
campuses. That was an honor for us.
    The system that we represent in South Carolina, by the way, 
has had tremendous support, and one of them is in this room, 
Congressman DeMint. I am personally honored by his 
complimentary remarks about me. I work with a lot of great 
people, and I am just one of them. We make a very good team. 
Our mission is very important for our State.
    We come from a poor State. Forty, 50 years ago, all we had 
was textiles in the upstate and agriculture in the low state. 
The textiles are gone. The low state is still in agriculture, 
most of it, not all of it.
    It is growing in the upstate in the high tech area 
tremendously fast. The corridor between Raleigh-Durham and 
Atlanta is in one of the 20 top growth corridors in the world. 
It is growing with foreign industries--German industries, 
British industry, Canadian industry, Japanese industry--the 
list goes on ad infinitum. We are in the middle of all of that, 
and we are trying to use these community colleges and technical 
colleges to train the masses of our people that are not going 
into these universities, to train these people and give them 
the necessary skills; and it has been said by some of these 
fine people here, we are giving them the skills now to go into 
an industry that requires more brain power than it does brawn.
    And that is happening, and you know that, Mr. Chairman; you 
mentioned that, as far as the technology and how it is driving 
all of this. It is influencing and affecting our economy 
tremendously.
    We started out with a simple concept. We were going to go 
out in the world and find this industry and bring them to South 
Carolina. That is what we were trying to do. We have done quite 
well with that--``we,'' meaning the State Department of 
Commerce and many, many others, people that are involved with 
industry and industrial development.
    We work closely with them, but when we see these industries 
face to face, we say, whatever your needs are to get you in 
business and make you successful in South Carolina, we are 
going to do it. That is our bottom line, and it is working 
beautifully and we have not failed. We get the support of the 
legislature. We get the support of Congress and people like 
Congressman DeMint. It is working better than I think a lot of 
people realize.
    I am going to take this time to invite any of these 
Members, if you ever want to come to our part of the State and 
talk to our industrial leaders and get inside the big, 
sophisticated plants, you are going to be more than welcome to 
come and see us. We open up partnerships every day. We open up 
partnerships in our school systems, in our hospital systems, in 
our industries, in our governments, all of these things we are 
interfacing with constantly. But the one I am to report on 
today is the education side.
    I look at education as a seamless system that starts at the 
kindergarten level and runs all of the way through the 16 
years. We are all in the same boat. It is an upward mobility 
throughout the system. I think it is something that we have got 
to accept that there is no separation. We are all working 
toward the same thing and working toward educating the masses 
of those young people, to get them ready for a university or a 
fine technical job in some of these sophisticated industries.
    I am going to give you a few very important projects. I 
mentioned one quickly, a university center that now serves 
approximately 5,000 people in the Greenville area that started 
out because we did not have a major university in that city. We 
now have seven State universities in that city. We bought a 
600,000-square-foot mall to put them in, and that has been an 
outstanding project and that leads back to these young kids 
that are coming through our system in the end.
    In conclusion, we are saying, yes, you need Perkins money; 
yes, you need new industries; yes, you need jobs; yes, we need 
all of these things. And, yes, we need Congress' support and 
the support of State legislators, local governments, local 
industries, we need all of that to make this work. I plead with 
you to continue doing those things. It helps education, our 
schools, our community colleges, our career centers, our 
vocational high schools and so on.
    I am honored to be here. Thank you.
    [The prepared statement of Dr. Barton follows:]

Statement of Thomas E. Barton, Jr., President, Greenville Technical and 
             Community College, Greenville, South Carolina

[GRAPHIC] [TIFF OMITTED] T3384.001

[GRAPHIC] [TIFF OMITTED] T3384.002

[GRAPHIC] [TIFF OMITTED] T3384.003

                                ------                                


    Mr. Castle. Thank you, Dr. Barton. Thank you for bringing 
up the memory of our mutual friend, Jack Owens, who was a 
master of getting whatever he wanted out of our legislature. I 
was Governor when he kept getting a higher percentage than he 
should have gotten.
    I imagine you do the same thing, and I congratulate you. It 
helps our young people.
    Ms. Zwickert.

STATEMENT OF MARIE ZWICKERT, AREA ACADEMY MANAGER FOR NE AND OH 
           VALLEY, CISCO SYSTEMS, COLUMBIA, MARYLAND

    Ms. Zwickert. Mr. Chairman and Members of the Committee, I 
am pleased to appear before you today to share our company's 
perspective on the role and importance of career and technical 
education in America.
    I represent CISCO Systems, the worldwide leader in Internet 
technologies. CISCO hardware, software and service offerings 
are used to create Internet solutions that allow individuals, 
companies and countries to increase productivity, improve 
customer satisfaction, and strengthen competitive advantage. We 
have over 34,000 employees worldwide. During fiscal year 2003, 
our revenue totaled $18 billion.
    Over the years, CISCO's name has become synonymous with the 
Internet, since we are involved with every type of application. 
We would like to say CISCO is changing the way people work, 
live, play and learn.
    CISCO's success is not ultimately the result of a product. 
We are a knowledge-based company. We are only as successful as 
our people are knowledgeable and skilled. For this reason, we 
have always had partnerships with education.
    Concerned about the long-term capabilities of our workforce 
and that of our business partners and customers, CISCO launched 
the CISCO Networking Academy program in 1997, a comprehensive 
E-learning program which is designed to teach students Internet 
technology skills. It has been developed and delivered by 
educators and industry professionals, and the program provides 
a combination of Web-based curriculum, instructor-led learning, 
online assessments, student performance tracking, hands-on 
labs, instructor training and support, and preparation for 
industry standard certification. As a result, students can 
apply classroom learning to actual technology challenges which 
ultimately prepare tomorrow's workforce for lifelong learning 
opportunities and motivate them to continue their learning.
    Now in its sixth year, the Networking Academy has more than 
10,000 academies in 152 countries with over 400,000 
participating students. In the United States, we have over 
4,000 academies with over 100,000 participating students. As 
you can tell, CISCO is by no means a marginal partner in this 
endeavor.
    Based upon our 6 years of experience with the program, I 
would like to share with you five key elements for programmatic 
success. One is academic rigor and technical know-how. There is 
no way around high academic skills when working in our 
industry. Without a strong foundation in math, science and 
reading, a student cannot pursue the most basic career path. 
All our curricula are founded upon high academic rigor. 
Students apply this academic foundation to technical concepts 
and knowledge. By applying academic basics to networks and 
other technology skills, the Academy program further develops 
students' math, science, writing, and problem-solving 
abilities.
    Our curriculum also provides academic and technical 
competencies. To promote a well-rounded educational experience, 
the Academy curriculum is aligned with U.S. national and State 
math, science and language arts standards, as well as workforce 
competencies. We have invested in a sophisticated online data 
base that crosswalks State academic standards with learning 
targets of our respective courses. In other words, we answer 
the age-old question: Why do I have to learn this?
    Our second important element is assessment designed to 
support learning. We use Internet technologies that help 
support assessment. The assessment is designed to provide 
immediate and ongoing feedback to our students and teachers 
regarding proficiencies in specified knowledge and skills. The 
feedback allows teachers to modify and adjust their 
institutional approach, and the assessment strategy is designed 
to inform or improve learning as well as hold students and 
teachers accountable for results.
    The third element that is important is alignment to 
industry standards and certification. Our curriculum prepares 
students for industry standards, hence enriching the skill set 
required to succeed in a global economy. All academic 
curriculums are matched to major certification in the IT 
industry, both vendor and nonvendor.
    Fourth is seamless, lifelong learning. The Academy program 
has been adopted by and integrated into a full spectrum of 
learning. It is offered by high schools, community colleges, 
universities and community-based organizations. There is a 
natural connection between secondary, postsecondary and 
corporate learning. This connection allows for students to 
launch careers in the industry which can include transition to 
work and to postsecondary.
    The fifth one is fostering digital opportunities. We 
understand that the digital divide can be bridged through 
education and the Internet, two great equalizers in this 
century. Diversifying our workforce is crucial to creating and 
maintaining skilled workers that our country will come to 
depend upon.
    More must be done to ensure that all members of our 
Nation's workforce have equal access to employment 
opportunities within the IT sector. Realizing this challenge, 
we have been working to achieve digital equity in underserved 
areas that benefit low-income individuals, certain ethnic 
groups, people in disadvantaged communities, and people with 
disabilities.
    CISCO has established a gender equity project to address 
the gender divide that seeks ways to increase women's access to 
IT training and career opportunities. We partner with 
educational institutions around the world to collect and 
disseminate best practices on recruitment and retention 
strategies. Based upon the research that we do on an ongoing 
basis, we are developing tools and resources such as a gender 
module for teachers of our programs, marketing materials, 
gender Web sites, media presentations and role models designed 
to attract and retain more women in the IT field.
    In conclusion, CISCO Systems, with other business and 
industry, is committed to working in partnership with career 
and technical education to help provide the highest quality of 
information technology programs available to our students and 
this country. We strongly encourage you to consider the 
importance of the Federal role in supporting career and 
technical education programs.
    As an industry that is concerned about its workforce's 
future, we support high quality career and technical education 
programs at the secondary and postsecondary level that 
integrate academic and technical skill attainment, encourage 
women to pursue nontraditional careers, support students of 
diverse backgrounds and partner with business and industry to 
provide youth and adults of this country the opportunity to be 
successful in our workplace.
    [The prepared statement of Ms. Zwickert follows:]

Statement of Marie Zwickert, Area Academy Manager for NE and OH Valley, 
                   CISCO Systems, Columbia, Maryland

[GRAPHIC] [TIFF OMITTED] T3384.009

[GRAPHIC] [TIFF OMITTED] T3384.010

                                ------                                


    Mr. Castle. Thank you.
    You have been a wonderful panel. You make a very strong 
case for the Perkins Act legislation and funding. We get that 
message loud and clear.
    I yield myself 5 minutes to start the questioning. I would 
like to address my first question and maybe my second question, 
too, to Ms. Walls-Culotta and Dr. White and maybe Dr. Wong.
    Moving off No Child Left Behind, I am worried about 
children left behind. This is sort of counterintuitive for me 
because I am always talking about the need for academics. Now I 
am concerned maybe we have overdone it.
    For example, in the case of Sussex Vo-Tech, you are turning 
down 300 kids. You are all talking about the academics and that 
kind of thing.
    I have a friend who is a master carpenter and a great 
fisherman. Looking at a pond, he can tell you things about that 
pond that I would not see in a million years. And I am sure--I 
don't know this for a fact, but I believe that he is not that 
well educated, but probably had a great deal of interest in the 
vocational end of it.
    My concern is, what kind of education would have been open 
for him? Are we overstressing the academic side of this? I want 
to make sure we are not leaving some kids behind that may not 
be able to handle these things.
    Make me feel better about the balance of all of this.
    Ms. Walls-Culotta. At Sussex Tech, we accept all students. 
They have to be passing in one marking period all of their 
courses, and that is with a 70. We do not ask for A's and B's. 
We want a very diverse group of students.
    In our curriculum, we make sure that it is not all academic 
based, and it is really geared to their technical programs. We 
have auto students that when I go out and work with them in the 
shop areas, they really could care less what is happening in 
English, but when you can tie it to a car magazine or technical 
journal and have them write about it, they do not think they 
are doing English, they think they are doing automotive.
    We would like to take all 600 students, but we are up to 
seven trailers, and we just had an addition 3 years ago. We can 
only take so many.
    Mr. Castle. Dr. White.
    Dr. White. As we look at our individual academic plan, we 
sit down and have a conversation with every student as they 
come to Great Oaks. By doing that, we can determine where that 
student has deficiencies and what that student needs. We have a 
motto that ``one size does not fit all,'' so we are very 
careful to make sure that we meet their academic needs through 
a variety of ways.
    As Ms. Walls-Culotta stated, our students do learn their 
academics better, more comprehensively, when they are engaged 
in something that they care about. We also look for other ways 
to meet their needs.
    Virtual academics is a way that we often meet students' 
needs at Great Oaks. They may relate better to a computer 
program rather than a classroom and individual teacher. We look 
for any way to help individual students, any way we can.
    Mr. Castle. Dr. Wong.
    Dr. Wong. It has been said that quality education is in the 
national interest. However, it is a State responsibility.
    One of the issues you have raised in terms of who monitors 
and who advocates so no child gets left behind really is 
looking at a State structure. In California, we have over 6 
million students in our K-12 public schools. So 6 million 
students, residing in over 1,000 school districts, the 
structure in California that helps ensure that there is an 
advocacy and a degree of universal attention given to those 
students is through a county delivery model. There are 58 
counties in California, and within those 58 counties, there are 
58 county offices of education and 58 county superintendents.
    So for Congresswoman Woolsey to calibrate what is happening 
in her two counties, she has to contact two county 
superintendents. That level of accountability and that level of 
oversight and leadership really ensures that when we look at 
those scales, 6.5 million students that those 58 counties are 
monitoring, working with those individual districts, looking at 
a specific county, district-by-district, school-by-school 
performance data to ensure that students are being given access 
and equity to both academics and workforce preparation.
    Mr. Castle. Thank you very much. My time is running out, 
but let me ask about No Child Left Behind.
    I am cognizant of the fact that it primarily applies to 
children before they get to vo-tech high schools, although as I 
recall, we have 1 year after 8th grade that has to be tested. 
The President is talking about testing in 12th grade. I would 
be interested in how you are handling that issue in your 
schools. Any problems on that, complications, or has it a 
relatively minor impact at the vocational-technical level?
    Ms. Walls-Culotta. No Child Left Behind has made us look at 
how we deliver our math programming because we found that is 
where our students were having the most difficulty. As a 
separate school district in Delaware, we are basically the only 
school besides the adult ed division, so we do receive Title 1 
funds, and we have now changed from reading to mathematics 
because of our students' needs.
    We have had to add additional time to the day to expand our 
periods so we can double-dose our math because students coming 
in to us that were below standard, we did not want to take away 
from the technical programs that they were in because we felt 
that made a better connection for them, but we had to figure 
out another way to provide more math instruction.
    Under the accountability system, even though we continue to 
improve our scores, our students are going on to postsecondary 
programs. They are earning tech-prep credits. My school will be 
under school improvement this year because one of our special 
ed cells cannot make the requirements. This will be 2 years in 
a row, even though we have done a lot of great things for 1,180 
students; we have the 40 who are doing the best in the State, 
but we can't take credit for that.
    Mr. Castle. It is No Child Left Behind. I appreciate what 
you are doing.
    Dr. Barton. 
    Dr. Barton. Let me add one comment. We have a large number 
of people that come out of our high schools. A lot of them drop 
out before they finish high school, and they come on to the 
community college. We test all of those people to decide what 
achievement level they have reached. A large number do not 
reach the requirements to move into programs like nursing and 
electronics and many of the more sophisticated programs.
    We have a large division of remediation or developmental 
studies that we channel these people through. They can come any 
hour of the day, night or weekends.
    A lot is self-paced technology that we are using. Somewhere 
like 3,000 a month go through this system. Every week we put 
out at least 100 of them that go into the program of their 
choice and have reached that level to leave the remediation 
program and go into the program of their choice.
    They can do and are doing it. The technology is in place to 
get it done; that is one major thing. We are in a salvaging 
process, if you want to use that term, but that is what we are 
doing.
    Mr. Castle. I hope to do it sooner. My time has run out, 
but Dr. White and Dr. Wong, any comments?
    Dr. White. Relative to No Child Left Behind and increased 
testing, it certainly has focused us in the area of 
professional development. It is no longer what we used to call 
``feel good'' professional development. Now we look at how 
students scored on the assessment, and we determine how to 
redirect our teaching so we can meet the needs of those 
students.
    Mr. Castle. Dr. Wong, your mission is a little wider.
    Dr. Wong. We do recognize that the reauthorization of 1998 
did compel all school districts to look at the integration of 
relevancy as well as academic rigor. I believe all school 
districts in California have taken that to heart. We no longer 
see relevance and rigor to be exclusive of each other.
    Mr. Castle. Thank you.
    Ms. Woolsey.
    Ms. Woolsey. Thank you very much. I want to say something 
to Ms. Zwickert first. CISCO is in my district, and I am sure 
they participate on Dr. Wong's Education Round Table. They are 
an outstanding employer in the telecom industry for us, and we 
thank you. I am pretty sure they are part of the one economic 
effort that is going on to bring underprivileged women into the 
digital age, and I congratulate you for that also.
    My question is for Dr. Wong and Dr. Barton. You all 
mentioned how you are working with industry, but I would like 
to ask both of you to talk about how your process works in 
determining which educational programs are the most beneficial 
to your students. And at the same time, do you look into--like, 
Dr. Wong represents a very, very high income, high-cost-of-
living area. Do you look at how a person can earn a living that 
they can actually raise a family on when you are deciding which 
programs to train?
    Dr. Wong. Well, I agree, when you are looking at a complex 
issue like workforce preparation, you have to look at regions 
of a given State. I think part of the delivery model in terms 
of the Perkins funding is to look at maybe specific counties, 
work very closely with the local Chamber, the local economic 
development board. Each and every county in California has a 
Workforce Investment Board, and most county superintendents 
actually have a seat appointed by the Board of Supervisors on 
that Workforce Investment Board. That is an example of a 
regional approach that is sensitive to labor market demands in 
a State as complex as California.
    Dr. Barton. I will say that the one thing that you need to 
hear that we are doing, that might be beneficial: in order to 
run something as large as this institution with some 70 
different programs, and all of them rather complex and tied 
into the heart of industry and some of the biggest industries 
in the country, you have to have some real technical support to 
do this.
    What we did many, many years ago was to design a system of 
advisory boards made up of these people from hospital systems, 
industries, cut across the entire community, and we now have 
some 60-plus boards and these people are really volunteers for 
us. They are not paid, of course, and they are very committed 
to what they are doing.
    A lot comes down from the management level in these 
factories and hospitals, doctors and dentists and lawyers and 
police. These people keep us abreast of the technology, the 
kind of equipment that we have to have, the modifications of 
curriculums, curriculums that do not need to be there any more, 
that are outdated, the jobs are not plentiful. All of this 
comes under these boards and all of this is fed right into our 
system, along with augmenting it with many other things, as 
just pointed out.
    When we get all of this kind of information, it is 
relatively easy to keep up with the job market and what they 
are doing.
    Ms. Woolsey. And stay in front of it and not behind it 
because you can get people trained, and the jobs are not there 
any more.
    Dr. White.
    Dr. White. I agree with Dr. Barton. Having close industry 
involvement is key, as well as looking at market labor 
information. If you have a program that is no longer meeting 
the needs of the community and serving the public, you need to 
divest out of that program.
    Ms. Woolsey. I want to ask how these programs are working 
for young women. I have legislation called Go Girl, trying to 
encourage young girls from 4th grade on to stay in the math, 
science and technology fields because they lose interest. That 
is half of our workforce.
    Somewhere in your testimony, Ms. Zwickert, you said 50 
percent of the workforce is female, only 20 percent are in 
these technical jobs. Is there anything in your programs that 
is encouraging young women?
    Ms. Zwickert. We have a strategy called The Gender 
Initiative, and we are trying to promote awareness at the high 
school level for young women so they realize what opportunities 
are available. So, for example, we have--in the Boston public 
schools, we work specifically with the community college, and 
on a yearly basis we provide a Technology Forum where we bring 
in female systems engineers to work with these middle school 
and high school girls to educate them accordingly.
    Quite honestly, the guidance counselors also need to be 
educated because many of the guidance counselors are not 
familiar with what is available. One of our strategies has been 
to develop a Web site with a tool kit so we can share it with 
guidance counselors and teachers accordingly.
    Mr. Castle. Mr. Osborne, you are recognized for 5 minutes.
    Mr. Osborne. Thank you, Mr. Chairman. I have a very brief 
question. I don't know if anybody can answer it.
    I represent primarily a rural district. There has been a 
lot of emphasis on academic rigor and what you are doing to get 
people up to speed in terms of today's economy.
    You know, a combine costs about $200,000. If you know how 
to fix it yourself, it makes a lot of difference as opposed to 
sitting out in the field. A new tractor is $100,000, and if you 
know how to weld, fix a center pivot, it is a huge thing in 
rural areas. I don't know if any of you have any experience in 
that type of arena or if you have any observations.
    It may be a very short question because that is what I am 
interested in.
    We really need to have Perkins grants out in the rural 
areas. I know there is a push right now to make things more 
sophisticated, more academically respectable.
    But the reality of rural America is these things have got 
to get fixed, and if we do away with the Perkins grant or some 
of the things that are currently in it, we have got a problem. 
So if anybody has a comment, I would appreciate it.
    Dr. Barton. I will take a shot at it. I think I was trying 
to place our institution in your district, and we have a basic 
philosophy that if there is a need in that community, we are 
going to find a way to meet that need, and that is exactly what 
we would do with what you have described here. You may have to 
go back to the manufacturer, or you may have to put something 
together that you could operate a training program, and it 
wouldn't be that expensive. There are numerous ways to find a 
way to get those people into a training program, even if we 
have to carry it out to them, and we do a lot of that, carry it 
to them. They don't have to come to the college. We will go to 
them, and we will find a way to identify exactly what they 
don't know and do whatever it takes to get them to know what 
they are after so they can make their own repairs and save a 
lot of money there. So we do a lot of that, but we don't do it 
on farming equipment. We do the same thing on a lot of other 
type of equipment.
    Dr. Wong. In California, specifically northern California, 
Sonoma County and Napa County, of course, are in competition to 
be the true purveyors of fine wine. However, the wine industry 
is also supplemented by the dairy industry, and there are 
strong ag mechanic programs. And many of our high schools 
contained in the ag mechanic programs are components and metal 
fabrication, welding mig, tig, as well as gas welding. There is 
machining components. We work very closely with the machinist 
union, sheet metal workers, and ironworkers in many of our 
schools to make sure that those types of skills are responsive 
to the needs of our particular region. So I want to assure you 
that that is a good use of Perkins funds that are responsive to 
regional labor demands.
    Dr. White. I can only echo that we have agriculture 
mechanic programs as well as a number of ag ed programs at 
Great Oak, and again, we see it as our responsibility to the 
economic development of our communities, and if the community 
needs it, we are going to provide it both at the secondary 
level and also part-time adult ed programs as needed.
    Mr. Osborne. Thank you.
    I won't belabor the point, but, Mr. Chairman, in areas like 
I represent, I think that the main fear right now is that 
somehow Perkins is going away, and if so, it will really impact 
our high schools, our community colleges, our vocational/
technical schools. And so we will do whatever we can to 
preserve it. I am glad to hear that you have some interest 
also. Thank you. I yield back.
    Chairman Castle. Thank you, Mr. Osborne.
    Mrs. Davis is recognized for 5 minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I wanted to follow up on Ms. Woolsey's question for a 
second, Ms. Zwickert. Do you have statistics of the number of 
young women who, in fact, are becoming excited, those who 
otherwise would not have been, by math and science, for 
example, and I guess what kind of an outcome would you feel is 
successful versus kind of lukewarm in terms of the program and 
how it is working?
    Ms. Zwickert. Yes. We do have data, and we collect that 
from the schools, and we use the Internet to maintain that 
data, and it is information that can be shared. I do not have 
it here today, but I can obviously get that to you.
    What we are actually doing is working with eight different 
schools around the country to increase female participation in 
the academy program, and we are measuring those statistics.
    Relative to outcomes, what we are trying to do is make 
young women aware of the various careers that are available. 
And we recently created a video called ``I Am a Female 
Engineer.'' and I have a daughter myself who is 15, and quite 
honestly she is not aware of what engineers do in an everyday 
job, and I think it is our goal and mission to make young women 
aware of what summer jobs are available. So the schools 
themselves are working collaboratively with the community 
colleges as well as industry to make these young women aware of 
the kind of positions that are available.
    Mrs. Davis of California. Thank you. And I know I have seen 
some of those in my home area of San Diego as well, and part of 
the question often is what are we seeing in terms of those 
individuals that are making choices other than what they had 
perhaps--
    Ms. Zwickert. I have a really wonderful success story to 
share with you. We have from Ohio, from Columbus High School. A 
young woman went through our academy program because she was 
invited by some of her peers to join the program, and she 
really had a propensity to succeed in IT. She graduated as a 
valedictorian from Briggs High School. She went on to Xavier 
University with a scholarship, and now she is studying business 
administration with a minor in computer science. And I have 
many other stories much like that to share.
    So it really goes back to the instructor as well to help 
motivate the young women to learn about careers in IT, and in 
many instances what we are trying to do is record the best 
practices and then share them with educational institutions 
throughout the country.
    Mrs. Davis of California. Thank you. I appreciate that.
    Ms. Zwickert. Sure.
    Mrs. Davis of California. I think that earlier in the 
testimony, and I am sorry I wasn't able to be here for that, 
you talked about remediation and the need to bring students, 
particularly in literacy and, I am assuming, in mathematics as 
well, up to a level so they can really take advantage of the 
programs that you have to offer. How are you working with the 
teachers and the overall programs in order to do that? Is there 
particular emphasis on students who you know are going to be 
taking some of the courses particularly and having some of the 
partnerships in the community that need those skills, they need 
the remediation? How are they getting it, and how are you 
isolating some of those issues?
    Dr. Wong. The county office of education in Sonoma County, 
we are promoting a concept called a graduate guarantee or a 
warranty. Every single student who goes through our high school 
system, if any employer feels that they need any kind of 
additional skills related to their high school coursework, we 
have a commitment to provide that free of charge. We will 
provide--we will buy books for them to go back through the 
adult school programs. We will actually bring training to the 
employer's site. We are actually on the work sites of several 
of our large businesses in terms of those employees who have 
not yet completed their high school diploma. We are on those 
work sites for GED prep. We are on these work sites for English 
proficiency, and we are actually at one work site providing 
coursework necessary for citizenship completion.
    Mrs. Davis of California. And what source of funding are 
you using for that?
    Dr. Wong. We are using funding that flows through the 
county office of education, which again serves as that umbrella 
for the 1,000 independent school districts in California.
    Mrs. Davis of California. And not necessarily Perkins money 
then for that?
    Dr. Wong. We want to maintain the integrity of the Perkins 
money in terms of making sure that it stays localized to the 
secondary school system.
    Mrs. Davis of California. Great. Thank you.
    Thank you, Mr. Chairman.
    Thank you all for being here.
    I actually served on a school board in San Diego a number 
of years ago, and we struggled with this all the time, and 
there was a point at which--there were a number of, I guess I 
would call it, vocational programs that were phased out because 
students were not necessarily doing that well. And then they 
came back in a different form, and there are some, I think, 
wonderful model schools.
    But generally speaking, I still run into many, many 
students and faculty, parents who feel that we continue to put 
greater emphasis on students who are going to college, and I am 
sure that you have all addressed this issue. But is there 
anything as you work with this that you feel we are perhaps 
setting up some obstacles in the programs in order to be quite 
successful in getting out the message that not only are the 
programs there, the training is there for the instructors, the 
premium is there to support them as they move forward? Where 
are the real problems that you see and that we need to be very 
cognizant of, I guess, as we move forward with this 
reauthorization?
    Dr. Barton. I think you are going to have to start and go 
back and take a serious look at the dropout rate in our public 
schools across the entire country. The number is going up, 
folks, not down, and we are dealing with that every day. And we 
are dealing with hundreds of them that drop out, but we are 
also dealing with hundreds of them that have high school 
diplomas in their hand, but they test out at around the eighth 
or ninth grade level, and yet they want to be a nurse or 
whatever they may want to be. We can't put them in those 
programs unless we elevate that achievement level.
    And that is exactly what we are doing, and I think he gave 
you a very good answer there. And we do basically the same 
thing. We have a full-time person that does nothing but work 
with the leadership in the school district to try to pinpoint 
these people in advance. And you have touched on the edge of 
that, to try to find them out who they are, and help them, and 
get the word to them, and get them into our remediation system 
in our developmental studies.
    So it is a big problem, but it is not going away easily. It 
is a huge dropout problem, and on the other side of this these 
people cannot get decent jobs in industry. They just can't do 
it. They have got to have the skills. The jobs are there, but 
the skills aren't there, and you can't give them the skills if 
they are not capable of going into those training programs and 
acquiring those skills.
    So it is a tough situation. We are doing all we can, I can 
tell you that.
    Dr. Wong. Mrs. Davis, in response to your question about 
teacher certification and teacher training, in the State of 
California, as you know, certification and training is the 
function of two major institutions, the California Commission 
on Teacher Credentialing and the local county office of 
education, that validate the credentials of those teachers 
within their counties. So, for instance, San Diego County, Rudy 
Castruita, superintendent of the San Diego County Office of 
Education, he has a large team that does nothing but focus upon 
making sure adequate training is available. The beginning 
teacher program and support is there, and, of course, the 
county superintendents work very closely with the commission to 
make sure that we all have the strategies in place to ensure 
that highly qualified teachers are standing in front of all of 
our students.
    Dr. Barton. Could I add one more thing? In order to solve 
the problem that you are talking about here, in the future you 
are going to have to go back into the universities, and you are 
going to have to put some kind of training into those 
administrators of the future; that they are going to have to 
deal with this problem and not let this happen to this country 
that they would go back and allow the philosophy to perpetuate 
itself that we want all these kids going into a major 
university when they don't go to a major university. And I 
think that is where you are going to have to start, right where 
the origin is.
    Mrs. Davis of California. Thank you.
    Dr. White.
    Dr. White. I just wanted to respond that we recognize that 
most parents want their children to go to college, but what we 
are trying to help parents understand is success comes in all 
different sizes. There is not one way to win; that success has 
many different forms. We all know college graduates who are 
unemployed or underemployed, and yet we want to make sure that 
our students are successful. So we work individually with each 
one, with their families, to determine what that looks like and 
then help them reach their goals.
    Ms. Walls-Culotta. In addition to what Dr. White said, we 
also work very closely with the parents and the students from 
the time they enter. We do eighth grade visitations, and we 
talk then about your student is going to have options when he 
completes our schooling here. He will be able to go into a 
career or into the military or into college. It doesn't mean 
that your child has to go on to a 4-year college to be 
successful. And we try to bring in a lot of guest speakers and 
take students out to workplaces to really see that you don't 
always have to have that 4-year college.
    Mrs. Davis of California. Thank you, Mr. Chairman. Thank 
you.
    Chairman Castle. Thank you, Mrs. Davis. We appreciate your 
questioning.
    Mr. DeMint is yielded to for his questioning.
    Mr. DeMint. Thank you, Mr. Chairman.
    I would like to ask kind of a philosophical question that 
may be a little broader than just vocational/technical 
education, if you will allow me just a moment. And, Dr. Barton, 
I will focus on some of the things you said that I think one 
out of every four American students graduate high school is a 
statistic I have heard. And with all the talk back home, around 
the country, of the lack of jobs and jobs going overseas, it is 
always almost stunning to me as I tour manufacturing plants in 
South Carolina that almost inevitably they tell me their 
biggest challenge is finding skilled workers.
    I was in a Tyco plant in Greenwood, South Carolina, last 
week. They are adding 250 people in a community that has high 
unemployment. Their biggest problem was the lack of high school 
preparedness. Even a local teacher who was frustrated with 
public school came in and applied for a job and didn't pass the 
basic skills test.
    There is some kind of disconnect, and the reason I am 
asking this question to this group is I know when you are 
involved with continuous quality improvement, you don't look at 
the way things have always been done, but you try to discover 
successes around the edges. And where I think the successes are 
occurring have been in vocational/technical education not 
because it is vocational/technical, but it begins to teach 
academics in a context that has some relevant application to 
students, and suddenly those who never got academics before get 
it.
    And I see in the high school students--I don't want to be 
critical of high schools or teachers because they are angels, 
they work harder than anybody I know, but there is something 
about the way we are teaching and I think there is something 
about what you are doing that we need to take back to the rest 
of our education system, because folks who graduate high school 
now, even those who succeed, have few marketable skills, and 
many of them have very little knowledge of what careers are out 
there. So they have no idea how to apply what they have been 
learning.
    And what we do here and what we do back in the education 
community is we have got K through 12, everybody is going to 
learn academics. We are going to pass on information, and those 
that don't get it we will maybe send them to votech, or if they 
drop out, we will try to get them to come back later. And it 
seems to me that what we need to start thinking about is what a 
lot of you have already been doing in high school, and 
hopefully middle school, is to recognize that most students 
don't learn academics well in the abstract, and that teaching 
academics in the context of careers and skills, not just 
votech, but banking and marketing and everything else, so that 
in middle school these kids start to see that this makes sense 
in their life, and they are not asking, why do I have to learn 
this, because they start to learn why they have to learn it 
while they are learning it.
    And I am just very discouraged about our education system 
and that we spend more on it than we do defense and we lose 
ground to industrial nations every year. And it seems to me as 
I see, Dr. Barton, what you have done with the charter high 
school, what we are hearing about today, that you can take kids 
who are not succeeding in the traditional academic environment 
and find out that they are very smart, and they may ultimately 
get a Ph.D., but we have to engage them some way, and I think 
the way we engage them is the way you are engaging them.
    My hope is--I know I am preaching more than I am asking 
here--if you have seen and you have discovered in your charter 
high school and these other applications that we can take 
students who we otherwise didn't think were smart and discover 
that they really are if we begin to teach them in a way that 
has a context and relevance to their life.
    So, Tom, I know I am not leaving you much to say, but I 
would just like a philosophical answer related to all of 
education, not just a little part of it that we are talking 
about today.
    Dr. Barton. I would say amen to everything you said. That 
certainly is appropriate. But I think we are doing a lot of 
what you said, as you know. Most of our programs have clinical 
training, hands-on learning, applied technology. All of those 
things we are involved with. I don't think they have that 
opportunity.
    We do cross over, I will say this, with our school district 
and their career centers and so forth. We share labs with them, 
sophisticated labs, labs that are very expensive. We are doing 
some of that, and it is beginning to pay off, but it is slow. 
It is a slow process. We bus them to our campuses and put them 
in those labs, and we work with them to get the dual credits 
while they are simultaneously in high school, and that is 
called middle college, I believe, now is the new term for it, 
and that is an appropriate name, of course.
    We are doing some of that, but we are not doing enough of 
it, and Congressman DeMint is exactly right. It is a change--
the change must take place down below the college level. It has 
got to. It has got to take place below there. And we are trying 
our best to help them get this done by supplying equipment for 
them, cross-utilizing faculty, cross-utilizing libraries. Our 
charter school is a perfect example. They are involved not only 
with high-school-level training, but they are involved with 
collegiate-level training simultaneously here. So it is 
beginning to happen, but probably not fast enough--
    Mr. DeMint. I saw a few smiles I liked over here. So just a 
couple of quick comments. I know I am about out of time, too.
    Ms. Walls-Culotta. I didn't realize how much disconnect 
there was between our academic and technical teachers until one 
of my math teachers and one of our automotive instructors were 
participating in a research project for the National 
Dissemination Centers, and they finally realized math is 
sterile, and because the automotive instructor was saying, I 
teach these same concepts, but these are the words I used. So 
the students are learning the concepts. They don't realize they 
are learning it. So that is one of the reasons why we try to 
provide the staff development for our academic teachers to see 
what really is going on in those technical areas and see how 
they can make the connection, because the students then realize 
that an algebraic equation or Ohm's law isn't just something I 
have got to learn because it is math; if I don't learn Ohm's 
law, if I put a new speaker in my car, I am going to blow the 
alternator. So it is really practicality, and it gets the kids 
to realize, you know, I really do need to know this.
    Mr. DeMint. Thank you, Mr. Chairman.
    Chairman Castle. Thank you, Mr. DeMint.
    We have reached the time of the end of the hearing. I don't 
know if any Member has a pressing question they didn't get a 
chance to ask. If not, let me thank all of you very, very much.
    The process of all of this is we take all of your testimony 
as well as what you said today. Staff will review all this, 
peruse it, and ultimately it will lead to the preparation of 
legislation. So your contribution is very important to all of 
us, and your upbeat attitude about many of the things that are 
happening in education is appreciated as well. It is not always 
as upbeat as that. So we appreciate that.
    With that we stand adjourned.
    [Whereupon, at 2:30 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
